APPENDIX

App-i
TABLE OF APPENDICES
Appendix A
Memorandum Opinion, United States Court
of Appeals for the Ninth Circuit, EHM

Productions Inc. v. Starline Tours of
Hollywood, Inc., No. 19-55288

(Aug. 28, 2020)..........................................App-1

Appendix B
Order (Denying Petition for Panel Rehearing
and Rehearing En Banc), United States Court
of Appeals for the Ninth Circuit, EHM

Productions Inc. v. Starline Tours of
Hollywood, Inc., No. 19-55288

(Nov. 4, 2020)............................................App-5

Appendix C
Order (Requesting Supplemental Briefing),
United States Court of Appeals for the Ninth
Circuit, EHM Productions Inc. v. Starline
Tours of Hollywood, Inc., No. 19-55288
(Jun. 3, 2020)............................................App-7
Appendix D
Order (Denying Appellees’ Motion to Dismiss),
United States Court of Appeals for the Ninth
Circuit, EHM Productions Inc. v. Starline
Tours of Hollywood, Inc., No. 19-55288
(Sept. 17, 2019).........................................App-9

App-ii
Appendix E
Order, United States District Court,
Central District of California, Warner Bros.

Entertainment Inc. and EHM Productions Inc.
v. Starline Tours of Hollywood, Inc.,

No. 16-cv-02001 (Oct. 11, 2018) .............App-11

Appendix F
Order, United States District Court,
Central District of California, Warner Bros.

Entertainment Inc. and EHM Productions Inc.
v. Starline Tours of Hollywood, Inc.,

No. 16-cv-02001 (Oct. 19, 2018)..............App-36

Appendix G
Report on the Filing or Determination of an
Action Regarding a Patent or Trademark (with
Joint Stipulation of Dismissal of Action
Without Prejudice), United States District
Court, Central District of California, Warner

Bros. Entertainment Inc. and EHM
Productions Inc. v. Starline Tours of
Hollywood, Inc., No. 16-cv-02001

(Feb. 14, 2019).........................................App-56

Appendix H
Defendant and Counterclaimant Starline
Tours of Hollywood, Inc.’s Memorandum of
Contentions of Fact and Law, United States
District Court, Central District of California,

Warner Bros. Entertainment Inc. and

App-iii

EHM Productions Inc. v. Starline Tours
of Hollywood, Inc., No. 16-cv-02001

(Jan. 29, 2019).........................................App-60

Appendix I
Relevant Statutory and Rule
Provisions ................................................App-67
28 U.S.C. § 1291 ...........................App-67
Rule 41 of Federal Rules
of Civil Procedure..........................App-67

App-1
Appendix A
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
________________
No. 19-55288
________________
EHM PRODUCTIONS, INC., DBA TMZ, a California
corporation; WARNER BROS. ENTERTAINMENT INC., a
Delaware corporation,
v.

Plaintiffs-Appellees

STARLINE TOURS OF HOLLYWOOD, INC., a California
corporation,

Defendant-Appellant

_________________

Appeal from the United States District Court
for the Central District of California
S. James Otero, District Judge, Presiding
Argued and Submitted: August 10, 2020
Pasadena California
Filed: August 28, 2020
________________
MEMORANDUM *
________________
*

This disposition is not appropriate for publication and is not

precedent except as provided by Ninth Circuit Rule 36-3.

App-2
Before: WARDLAW and CLIFTON, Circuit Judges,
and HILLMAN, ∗ ∗ District Judge.
________________
Starline Tours of Hollywood, Inc. (Starline)
appeals the district court’s orders dismissing its
First Amended Counterclaim (FACC) and denying
its motion for leave to amend. We dismiss this
appeal for lack of appellate jurisdiction.
1.
Under 28 U.S.C. § 1291, the courts of
appeals have jurisdiction over “final decisions of the
district court.” Nat’l Distrib. Agency v. Nationwide
Mut. Ins. Co., 117 F.3d 432, 433 (9th Cir. 1997).
Generally, “a voluntary dismissal without prejudice
is ordinarily not a final judgment from which the
plaintiff may appeal.” Galaza v. Wolf, 954 F.3d
1267, 1270 (9th Cir. 2020) (cleaned up). A limited
exception to this rule—which Starline seeks to
invoke—permits an appeal “when a party that has
suffered an adverse partial judgment subsequently
dismisses its remaining claims without prejudice
with the approval of the district court, and the
record reveals no evidence of intent to manipulate
our appellate jurisdiction.” James v. Price Stern
Sloan, Inc., 283 F.3d 1064, 1070 (9th Cir. 2002)
(cleaned up). We recently reemphasized that this
exception applies only if the dismissing party
∗∗ The Honorable Timothy Hillman, United States District
Judge for the District of Massachusetts, sitting by designation.

App-3
secures “the approval and meaningful participation
of the district court.” Galaza, 954 F.3d at 1272.
Here, “there was no meaningful district court
participation in” the parties’ “voluntary dismissal”
of their surviving claims. Id. at 1271. The parties
effected this dismissal through a “Joint Stipulation
re Dismissal of Action Without Prejudice” under
Federal Rule of Civil Procedure 41(a)(1)(A)(ii). Rule
41(a)(1)(A) is a mechanism for voluntary dismissal
“Without a Court Order,” and the parties’ joint
dismissal did not request an order or entry of
partial judgment. The district court issued no
further orders in this case. Because the district
court played no role in the parties’ voluntary
dismissal of the claims, that dismissal did not
produce a final, appealable order. Galaza, 954 F.3d
at 1272.
2. Starline’s arguments to the contrary are
unavailing.
First, while the joint stipulation stated that
the voluntary dismissal was “at the suggestion of
the Court,” it also noted that this suggestion was
“to avoid an unnecessary appearance at the pretrial conference,” rather than a substantive
direction as to the remaining claims. In any event,
even if “the district court approved the stipulation
to . . . dismiss, such approval cannot be said to
involve meaningful consideration or participation
by the district court inasmuch as the parties were
entitled to do so without leave of the court.” Am.

App-4

States Ins. Co. v. Dastar Corp., 318 F.3d 881, 888
(9th Cir. 2003) (cleaned up).

Second, the clerk of court’s entry of the
“Report on the Filing or Determination of an Action
Regarding a Patent or Trademark” on the district
court docket is irrelevant. Clerks of court are
required by statute to transmit certain information
in this form to the United States Patent and
Trademark Office. 15 U.S.C. §§ 1116, 1127. That
the clerk fulfilled this reporting requirement after
the parties dismissed their claims does not signify
that the district judge meaningfully participated in
the voluntary dismissal.
3. Finally, the record does not contain
“unambiguous evidence” that the parties intended
their stipulation of voluntary dismissal to serve as
a dismissal with prejudice. Romoland Sch. Dist. v.
Inland Empire Energy Ctr., LLC, 548 F.3d 738, 751
(9th Cir. 2008). Unlike in some of our prior cases,
see id. at 750, the stipulation here expressly stated
that the dismissal was “without prejudice.” Nor did
the stipulation “permit . . . appeal of the underlying
order they considered determinative” or serve some
other function that would counsel in favor of
treating their stipulation as effecting a “dismissal
with prejudice.” Concha v. London, 62 F.3d 1493,
1508 (9th Cir. 1995) (cleaned up).
DISMISSED.

App-5
Appendix B
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
________________
No. 19-55288
________________
EHM PRODUCTIONS, INC., DBA TMZ, a California
corporation; WARNER BROS. ENTERTAINMENT INC., a
Delaware corporation,
v.

Plaintiffs-Appellees

STARLINE TOURS OF HOLLYWOOD, INC., a California
corporation,

Defendant-Appellant

_________________

Filed: November 4, 2020
________________
ORDER
________________
Before: WARDLAW and CLIFTON, Circuit Judges,
and HILLMAN, * District Judge.
________________
*

The Honorable Timothy Hillman, United States District

Judge

for

designation.

the

District

of

Massachusetts,

sitting

by

App-6
The panel unanimously votes to deny the
petition for rehearing. Judge Wardlaw votes to
deny the petition for rehearing en banc, and Judges
Clifton and Hillman so recommend.
The full court has been advised of the petition
for rehearing en banc, and no judge has requested a
vote on whether to rehear the matter en banc. Fed.
R. App. P. 35. The petition for panel rehearing and
rehearing en banc is therefore DENIED.

App-7
Appendix C
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
________________
No. 19-55288
________________
EHM PRODUCTIONS, INC., DBA TMZ, a California
corporation; WARNER BROS. ENTERTAINMENT INC., a
Delaware corporation,
v.

Plaintiffs-Appellees

STARLINE TOURS OF HOLLYWOOD, INC., a California
corporation,

Defendant-Appellant

_________________

Filed: June 3, 2020
________________
ORDER
________________
The parties are requested to file double-spaced
supplemental letter briefs, not to exceed five pages,
as to the effect, if any, of Galaza v. Wolf, 954 F.3d
1267 (9th Cir. 2020), on whether we have
jurisdiction over this appeal. The briefs are due
seven (7) days from the date of this order.

App-8
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Omar Cubillos
Deputy Clerk
Ninth Circuit Rule 27-7

App-9
Appendix D
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
________________
No. 19-55288
________________
EHM PRODUCTIONS, INC., DBA TMZ, a California
corporation; WARNER BROS. ENTERTAINMENT INC., a
Delaware corporation,
v.

Plaintiffs-Appellees

STARLINE TOURS OF HOLLYWOOD, INC., a California
corporation,

Defendant-Appellant

_________________

Filed: September 17, 2019
________________
ORDER
________________
Before: WARDLAW, NGUYEN, and HURWITZ,
Circuit Judges.
________________

App-10
Appellees’ motion to dismiss this appeal for
lack of jurisdiction (Docket Entry No. 18) is denied
without prejudice to renewing the arguments in the
answering brief. See Nat’l Indus. v. Republic Nat’l
Life Ins. Co., 677 F.2d 1258, 1262 (9th Cir. 1982)
(merits panel may consider appellate jurisdiction
despite earlier denial of motion to dismiss).
The opening brief and excerpts of record have
been filed; the answering brief is due October 18,
2019; and the optional reply brief is due within 21
days after service of the answering brief.

App-11
Appendix E
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________
No. CV 16-02001 SJO (GJSx)
________________
WARNER BROS. ENTERTAINMENT INC., et al. v.
STARLINE TOURS OF HOLLYWOOD, INC.
_________________
Filed: October 11, 2018
________________
CIVIL MINUTES – GENERAL
________________
PRESENT: THE HONORABLE S. JAMES
OTERO, UNITED STATES DISTRICT JUDGE
________________
PROCEEDINGS
(in
chambers):
ORDER
GRANTING
PLAINTIFF
AND
COUNTERDEFENDANT’S MOTION TO DISMISS
ALL
COUNTERCLAIMS
AGAINST
COUNTERDEFENDANT [Docket No. 42]; ORDER
GRANTING PLAINTIFF AND
COUNTERDEFENDANTS MOTION TO STRIKE
DEFENDANT AND COUNTERCLAIMANT'S

App-12
FIFTH
AFFIRMATIVE
DEFENSE
FOR
TRADEMARK REGISTRATION PROCURED BY
FRAUD [Docket No. 38]
This Motion comes before the Court on Plaintiff
EHM Productions Inc. (“EHM”) and Warner Bros
Entertainment Inc.’s (“WBEI”) Motion to Dismiss
All Counterclaims Against WBEI and WBEI’s
Motion to Strike Counterclaimant Starline Tours of
Hollywood Inc.’s (“Starline”) fifth affirmative
defense for trademark registration procured by
fraud (“Motion to Dismiss”; “Motion to Strike”). For
the following reasons, the court GRANTS both
Motions.
I. FACTUAL AND PROCEDURAL BACKGROUND
A.

Factual Background

Plaintiffs allege the following. In 2010, TMZ
partnered with Starline to create a custom, licensed
TMZ-branded bus tour to be operated by Starline.
(Complaint ¶ 11, ECF No. 1.) In 2011, the TMZ Bus
Tour (“Bus Tour”) was launched with customized
busses featuring the TMZ logo. (Compl. ¶ 11.)
Starline licensed from TMZ a series of trademarks
and service marks incorporating the TMZ name
and logo (the “TMZ Marks”) because of the fame of
such marks and the goodwill associated with the
TMZ Marks. (Compl. ¶ 11.)

App-13
1.

The 2012 TMZ-Starline Agreement

In August 2012, TMZ and Starline memorialized
the terms of their arrangement in the 2012 TMZ
Starline Agreement (“Agreement”). (Compl. ¶ 12;
see also Compl., Ex. A Agreement, ECF 1-1.)
Pursuant to the Agreement, net revenue is defined
as the aggregate earned gross revenue without
deduction for reserves or collection issues from the
sale of the Bus Tour tickets less operation costs,
shared costs, credit card company charges,
commissions, and other pre-approved costs.
(Agreement 4. 1) Net revenue was to be shared
equally between TMZ and Starline, i.e., fifty
percent to TMZ and fifty percent to Starline.
(Agreement 4.)
The
Agreement
provides
for
a
monthly
reconciliation process from the parties to determine
net revenues each month. (Compl. ¶ 15.) On or
before the twenty-fifth day following the month in
which the revenues are earned and costs incurred,
Starline was to provide TMZ all backup
documentation to support its revenue calculations,
and Starline and TMZ were to provide each other
with expense calculations with supporting
documentation. (Agreement 6.) TMZ would then
prepare and provide a monthly reconciliation
1
For purposes of this Order, pagination for the Agreement
follows the pagination indicated on the ECF stamp. For
example, “Agreement 2” refers to page 2 of 31 of Exhibit A,
which is the first page of the Agreement.

App-14
statement, after which Starline had five days to
distribute to TMZ any unreimbursed portion of
shared costs incurred by TMZ and TMZ’s share of
net revenue for the reported month. (Agreement 6.)
The Agreement further requires Starline to deposit
all revenues derived from the Bus Tour
immediately upon collection into a business
checking account solely dedicated to the Bus Tour
(“Dedicated Account”), and to maintain a minimum
account balance of $15,000.00 to minimize bank
fees and expenses. (Agreement 5.)
“[I]n the event of a termination due to material
breach by one party, the non-breaching party shall
not be subject to this Non-Compete, however, no
party is relieved of the obligation to keep
confidential all confidential information obtained
during the course of the parties relationship and no
party shall have the right to use the intellectual
property that is jointly owned by both parties.”
(Agreement 17.)
2.

Dispute Resolution Provisions

Pursuant to the Agreement, “[a]ny and all
controversies, claims or disputes arising out of or
related to this Agreement or the interpretation,
performance or breach thereof, including, but not
limited to, alleged violations of state or federal
statutory or common law rights or duties, and the
determination of the scope or applicability of this
agreement to arbitrate (“Dispute”) . . . shall be
resolved according to the procedures set forth in

App-15
subparagraph (a), below, which shall constitute the
sole dispute resolution mechanism hereunder[.]”
(Agreement 20.) Subparagraph (a) (the “Arbitration
Provision”) states, in part: “In the event that the
parties are unable to resolve any Dispute
informally, then such Dispute shall be submitted to
final and binding arbitration.” (Agreement 21.)
“The arbitration shall be conducted in Los Angeles
County before a single neutral arbitrator appointed
in accordance with the [JAMS] Arbitration Rules.
The arbitrator shall follow California law and the
Federal Rules of Evidence in adjudicating the
Dispute.” (Agreement 21). Furthermore, the
Agreement provides that “[n]otwithstanding the
foregoing, either party shall be entitled to seek
injunctive relief in the state and federal courts of
Los Angeles County to prevent or to compel conduct
as it relates to operation of the Bus Tour only.
Starline may not seek to enjoin any conduct of
EHM’s other business units, including any EHM
website or television program.” (Agreement 21.)
3.

Starline’s Breaches

Starline was required to make payments to TMZ
within five days after receiving a monthly
reconciliation statement from TMZ. (Compl. ¶ 23.)
Starline breached the Agreement by missing every
payment deadline for the past two years,
sometimes by more than four months. (Compl. ¶
23.) Although the Agreement grants TMZ the right
to terminate the Agreement immediately in the

App-16
event of late payment, without providing Starline
any opportunity to cure, TMZ sent multiple
communications to Starline demanding payment.
(Compl. ¶ 23.) Starline did not cure its payment
breach for November or December 2015 until
February 2016, after TMZ had already terminated
the Agreement. (Compl. ¶ 23.)
Starline also breached the Agreement by failing to
deposit ninety or more percent of revenues into the
Dedicated Account within one month immediately
upon collection thereof. (Compl. ¶ 24.) Starline
informed TMZ that it lacked the “capacity” to
segregate the Bus Tour revenues into the Dedicated
Account, and that it was therefore “impossible” for
Starline to timely make payments to TMZ. (Compl.
¶ 24.)
4.

TMZ’s Termination of the Agreement

TMZ terminated the Agreement on February 11,
2016 in response to Starline’s repeated material
breaches of the Agreement. (Compl. ¶ 25; see also
Compl., Ex. B Termination Letter, ECF No. 1-2.) In
the Termination Letter, TMZ provided Starline
with written notice of termination for cause.
(Compl. ¶ 25.) Although the Agreement provides for
a sixty-day wind-down period in the event of
termination for cause, in response to Starline’s
request, TMZ agreed to extend the wind-down
period for an extra thirty days, so that termination
will be complete on May 11, 2016 (“Termination
Date”). (Compl. ¶ 25.)

App-17
B.

Procedural Background

Plaintiffs filed a Complaint against Starline on
March 23, 2016. In the Complaint, Plaintiffs allege
the following causes of action: (1) trademark
infringement under the Lanham Act, 15 U.S.C. §
1114; (2) unfair competition under the Lanham Act,
15 U.S.C. § 1125(a); (3) false designation of origin,
false or misleading description of fact, false or
misleading representation of fact, false advertising
and unfair competition under the Lanham Act; (4)
trademark dilution under the Lanham Act, 15
U.S.C. § 1125(c); (5) trademark infringement under
common law; (6) false advertising under California
Business and Professions Code § 17200; (7)
violation of California Business and Professions
Code § 17200; and (8) declaratory relief. 2 (See
generally Compl.)
On March 24, 2016, Plaintiffs filed a motion for
preliminary injunction, seeking to enjoin Starline
from: (1) using the TMZ marks to advertise,
market, or operate any bus tours taking place after
the Termination Date of May 11, 2016; and (2)
operating or representing in any manner that they
2 Plaintiffs did not seek damages from Starline in the
Complaint. Plaintiffs requested that the Court enter a
temporary and permanent injunction enjoining Starline from
using the TMZ Marks to advertise the TMZ Bus Tour after
the Termination Date and to declare that TMZ’s termination
of the Agreement was proper, that the termination date is
May 11, 2016, and that Starline has no right to operate the
TMZ bus tour or use any TMZ Marks after that date. (See
Compl., Prayer for Relief.)

App-18
may operate the Bus Tour after the Termination
Date of May 11, 2016. On April 26, 2016, Plaintiffs
withdrew without prejudice the motion for
preliminary injunction because Starline ceased the
infringing conduct. (Notice of Withdrawal, ECF No.
35.)
Starline answered the Complaint (“Answer”) and
filed a counterclaim against WBEI and TMZ
(“Counterclaim”) on April 18, 2016. (See Answer
and Counterclaim, ECF Nos. 29, 30.) On May 8,
2016, Starline filed a First Amended Counterclaim
(“FACC”) alleging: (1) breach of contract against
TMZ; (2) breach of implied covenant of good faith
and fair dealing against TMZ; (3) declaratory relief
against TMZ and WBEI; (4) breach of fiduciary
duty against TMZ and WBEI; (5) trade libel against
TMZ and WBEI; (6) intentional interference with
contractual relations against WBEI; (7) unfair
competition against TMZ and WBEI; and (8)
cancellation of registered trademark against WBEI.
(See FACC, ECF No. 37.) Specifically, Starline
seeks damages from both TMZ and WBEI, a
judicial declaration that Starline has not breached
the Agreement, and a judicial determination that
TMZ cannot operate a bus tour that competes with
Starline, and that TMZ and WBEI be preliminarily
and/or permanently enjoined from operating a bus
tour that competes with Starline. (See First Am.
Countercl., Prayer for Relief.)

App-19
On May 9, 2016, WBEI filed a Motion to Strike
Starline’s Fifth Affirmative Defense for Trademark
Registration Procured by Fraud (“Motion to
Strike”). (Mot. to Strike, ECF No. 38.) On May 16,
2016, TMZ filed a Motion to Compel Arbitration
(“Motion to Compel”) and WBEI filed a Motion to
Dismiss All Counterclaims Against WBEI (“Motion
to Dismiss”). (ECF No. 40); (Mot. to Dismiss, ECF
No. 42.) Starline opposed the Motion to Strike on
May 16, 2016, and opposed the WBEI Motion to
Dismiss and instant Motion to Compel Arbitration
on May 23, 2016. (ECF Nos. 44, 48, 49.)
On June 20, 2016, the Court granted Plaintiff
TMZ’s Motion to Compel Arbitration regarding
Starline’s
First
Amended
Counterclaim.
(“Arbitration Order”) (ECF No. 55.) In the same
Arbitration Order, the Court stayed Starline’s
declaratory relief claim against TMZ, Starline’s
claims against WBEI, WBEI’s Motion to Strike,
and WBEI’s Motion to Dismiss pending arbitration.
TMZ and Starline participated in arbitration at
JAMS. (Status Report May 15, 2018 at 2-3, ECF
No. 84.) The arbitrator entered her final award
(“Final Award”) against Starline on October 26,
2017. (Id.) TMZ filed a petition to confirm the Final
Award in Los Angeles Superior Court on December
19, 2017. (Id.) Starline filed a notice of appeal with
JAMS on December 20, 2017. (Id.) Starline
removed TMZ’s petition to the United States
District Court for the Central District of California

App-20
on January 16, 2018, Case No. 18 CV 369 AB (Jcx),
where it was assigned to the Honorable Andre
Birotte, Jr. (The “Confirmation Action”). (Id.)
Starline then filed a Motion to Stay or in the
Alternative, Dismiss EHM’s Motion to Confirm and
a Motion to Vacate Arbitration Award and
Response to Petition to Confirm. (Id.; ECF No. 11;
ECF No. 15.) On February 28, 2018, Judge Birotte
stayed the petition until fourteen days after the
earlier of (a) an order by the JAMS appellate panel
dismissing the JAMS Appeal or (b) a decision by
the JAMS Appellate Panel on the merits of the
JAMS Appeal. (Id.) JAMS has not yet ruled on
Starline’s pending appeal. (Id.)
On February 23, 2018, the Court declined to
transfer the Confirmation Action to its calendar, on
the grounds that the cases concern different parties
and different claims. At a scheduling conference on
May 29, 2018, the Court set trial to resolve the
remaining trademark matters against WBEI for
February 26, 2019. The Court also lifted the stay
on The Motion to Strike and Motion to Dismiss
claims.
For the following reasons, the Court GRANTS both
Motions.
II. DISCUSSION
A.

Legal Standard

A motion to dismiss pursuant to Federal Rule of
Civil Procedure 12(b)(6) “tests the legal sufficiency

App-21
of the claims asserted in the complaint.” Ileto v.
Glock, Inc., 349 F.3d 1191, 1199-200 (9th Cir.
2003). In evaluating a motion to dismiss, a court
accepts the plaintiff’s factual allegations in the
complaint as true and construes them in the light
most favorable to the plaintiff. Shwarz v. United
States, 234 F.3d 428, 435 (9th Cir. 2000).
“Dismissal can be based on the lack of a cognizable
legal theory or the absence of sufficient facts
alleged under a cognizable legal theory.” Balistreri
v. Pacifica Police Dep’t , 901 F.2d 696, 699 (9th Cir.
1988).
Rule 12(b)(6) must be read in conjunction with Rule
8(a), which requires “a short and plain statement of
the claim showing that the pleader is entitled to
relief.” Fed. R. Civ. P. 8(a)(2); see Ileto, 349 F.3d at
1200. “While legal conclusions can provide the
framework of a complaint, they must be supported
by factual allegations.” Ashcroft v. Iqbal , 556 U.S.
662, 679 (2009). To plead sufficiently, Plaintiff
must proffer “enough facts to state a claim to relief
that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). Plausibility
requires “more than a sheer possibility that the
defendant has acted unlawfully.” Ashcroft, 556 U.S.
at 678. Instead, a claim must contain “factual
content that allows the court to draw the
reasonable inference that the defendant is liable for
the misconduct alleged.” Id. “Where a complaint
pleads facts that are merely consistent with a
defendant’s liability, it stops short of the line

App-22
between possibility and plausibility of entitlement
to relief.” Id. (internal quotation marks omitted).
In addition, “[i]n alleging fraud or mistake, a party
must state with particularity the circumstances
constituting fraud or mistake. Malice, intent,
knowledge, and other conditions of a person’s mind
may be alleged generally.” Fed. R. Civ. P. 9(b). A
plaintiff satisfies Rule 9(b) when he “identif[ies] the
circumstances constituting fraud so that the
defendant can prepare an adequate answer from
the allegations.” Odom v. Microsoft Corp., 486 F.3d
541, 553 (9th Cir. 2007). In order to accomplish
this, the plaintiff “must state the time, place, and
specific content of the false representations as well
as the identities of the parties to the
misrepresentation” and “explanations of why the
statements are misleading.” Id.; Cole v. Asurion
Corp. , No. CV 09-6649 PSG (JTLx), 2008 WL
5423859, at *2 (C.D. Cal. Dec. 30, 2008). In other
words, averments of fraud must be accompanied by
“the who, what, when, where, and how” of the
misconduct charged. Vess v. Ciba-Geigy Corp. USA,
317 F.3d 1097, 1106 (9th Cir. 2003) (citation
omitted). A complaint that fails to meet these
standards will be dismissed. Id. at 1107. Although
conditions of mind may be “alleged generally,” this
“merely excuses a party from pleading . . . intent
under an elevated pleading standard. It does not
give him license to evade the less rigid—though
still operative—strictures of Rule 8.” Ashcroft, 556
U.S. at 686-87.

App-23
B. Analysis
As a matter of review, on May 8, 2016, Starline
filed its FACC alleging the following: (1) breach of
contract against TMZ; (2) breach of implied
covenant of good faith and fair dealing against
TMZ; (3) declaratory relief against TMZ and WBEI;
(4) breach of fiduciary duty against TMZ and
WBEI; (5) trade libel against TMZ and WBEI; (6)
intentional interference with contractual relations
against WBEI; (7) unfair competition against TMZ
and WBEI; and (8) cancellation of registered
trademark against WBEI. (See FACC.) The Court
first addresses Starline’s counterclaims that arose
under federal law, and then addresses any
remaining state law claims.
1.

Starline Fails to Plead a Valid
Trademark Cancellation Claim

Trademark Cancellation based on fraud requires
(1) a false representation regarding a material fact;
(2) knowledge or belief that the representation is
false; (3) intent to induce the Trademark Office to
rely upon the misrepresentation; (4) actual,
reasonable reliance on the misrepresentation; and
(5) damages proximately caused by that reliance.
See Hokto Kinoko Co. v. Concord Farms, Inc., 738
F.3d 1085, 1097 (9th Cir. 2013). “Allegedly
fraudulent misrepresentation must be ‘material’ in
the sense that without it the registration would not
have issued.” eCash Techs., Inc. v. Guagliardo, 127
F. Supp. 2d 1069, 1079 (C.D. Cal. 2000), aff’d, 35 F.

App-24
App’x 498 (9th Cir. 2002). Thus, a pleading for
fraud must contain “explicit rather than implied
expression of the circumstances constituting fraud,”
and “should specify the time, place, and nature of
the alleged fraudulent activities.” Hana Fin., Inc. v.
Hana Bank, 500 F. Supp. 2d 1228, 1233 (C.D. Cal.
2007) (citing Moore v. Kayport Package Express,
Inc., 885 F.2d 531, 540 (9th Cir. 1989); internal
quotation marks omitted). “[M]ere conclusory
allegation[s]” do not suffice. Id. at 1074 (citation
omitted).
Starline alleges that in obtaining the trademark
titled “TMZ Hollywood Tour Secrets and Celebrity
Hotspots” (“Trademark”), WBEI committed fraud.
(FACC ¶ 71.) Starline argues that the Trademark
should be cancelled because WBEI intentionally
omitted the Agreement and Starline’s license to use
the Trademark in connection with the Bus Tour.
(FACC ¶ 71.)
Specifically, Starline’s FACC alleges the following.
At the time of application for the Trademark,
WBEI did not make it clear that because of the
parties’ shared Bus Tour, TMZ and Starline were
joint users of the Trademark. (FACC ¶ 33.) WBEI
did not disclose that it was not using the mark
itself. (Id. at ¶ 32.) Starline argues that WBEI’s
application to the United States Patent and
Trademark office was materially false in that it
intentionally, with intent to deceive, failed to
disclose TMZ and Starline’s joint use of the

App-25
Trademark. (Id. at ¶¶ 70-73) Because of these
representations, the Trademark was procured by
fraud and should be cancelled. (Id.)
In the instant Motion, WBEI contends that
Starline’s allegations are disproven by the
trademark application itself, Starline fails to plead
fraud, and Starline fails to plead subjective intent
to deceive. (Mot. To Dismiss 8-12, ECF No. 42.)
Starline argues that sufficient facts have been pled
to show that WBEI, in applying for the Trademark,
intentionally committed fraud. 3
Starline fails to plead facts sufficient to constitute a
cause of action for trademark procured by fraud.
The Trademark displays both TMZ and Starline’s
names. (See FACC Ex. 1 at 8, ECF No. 37-1.) The
photo attached to WBEI’s application displays
Starline and TMZ’s names, and reads “Partnered
with Starline Tours.” (Id.) Starline pleads no facts
to show that WBEI intended or attempted to
deceive the Patent and Trademark Office as to
ownership of the Bus Tours or the trademark. At
most, it appears that WBEI assumed that the
3 WBEI moves to strike Starline’s trademark cancellation
affirmative defense because it “fails as a matter of law.” (Mot.
to Strike 8-13, ECF No. 38.) The Court analyzes the pleading
sufficiency of Starline’s trademark cancellation claim and
affirmative defense together. See Consumer Solutions REO,
LLC v. Hillery , 658 F.Supp.2d 1002, 1020-2021
(N.D.Cal.2009) (“[W]here a motion is in substance a Rule
12(b)(6) motion, but is incorrectly denominated as a Rule 12(f)
motion, a court may convert the improperly designated 12(f)
motion into a Rule 12(b)(6) motion”).

App-26
Agreement as to the Bus Tour was clear from the
attached photograph.
Fraud must be plead with particularity and that is
not the case here. Starline does not show the Court,
through affidavits, exhibits, or otherwise, that
WBEI intended to deceive the Patent and
Trademark Office. Starline’s allegations are
nothing more than “conclusory allegations.” Moore,
885 F.2d at 540 (9th Cir. 1989).
Thus, Starline’s counterclaim and affirmative
defense against WBEI for Cancellation of
Trademark
are
dismissed
and
stricken,
respectively.
2.

Starline Does Not Plead an
Actionable Unfair Competition
Claim

“An [unfair competition] claim under 15 U.S.C. §
1125 requires proof of the same elements as a claim
for trademark infringement under 15 U.S.C. §
1114.” Kythera Biopharmaceuticals, Inc. v.
Luthera, Inc., 998 F.Supp.2d 890, 897 (C.D Cal.
2014) (citing Brookfield Commc’ns, Inc. v. W. Coast
Etmt’t Corp., 174 F.3d 1036, 1046 n.6 (9th Cir.
1999)). In order to succeed on an infringement/false
designation of origin claim under § 1125(a)(1)(A),
Plaintiff must prove each of the following elements:
(1) defendant uses a designation (any word, term,
name, device, or any combination thereof) or false
designation of origin;

App-27
(2) the use was in interstate commerce;
(3) the use was in connection with goods or services;
(4) the designation or false designation is likely to
cause confusion, mistake, or deception as to (a) the
affiliation, connection, or association of defendant
with another person, or (b) as to the origin,
sponsorship, or approval of defendant’s goods,
services, or commercial activities by another
person; and
(5) plaintiff has been or is likely to be damaged by
these acts.

Summit Tech., Inc. v. High-Line Med. Instruments,

Co., 933 F. Supp. 918, 928 (C.D. Cal. 1996)(internal
citation omitted).
Put simply, a plaintiff must show: (1) that it has a
valid, protectable trademark, and (2) that
defendant’s use of the mark is likely to cause
confusion. Kythera, 998 F. Supp. 2d at 898 (citing
Applied Info. Scis. Corp. v. eBay, Inc., 511 F.3d 966,
969 (9th Cir.2007)). Further, the Ninth Circuit has
identified six basic factors critical to a court’s
inquiry into likelihood of confusion: (1) the strength
of the plaintiff’s mark; (2) the similarity of the
marks; (3) evidence of actual confusion; (4)
marketing channels used; (5) type of goods and
degree of care likely to be exercised by the
purchaser of the goods; and (6) defendant’s intent
in selecting the mark. Americana Trading, Inc. v.

App-28

Russ Berrie & Co., 966 F.2d 1284, 1287 (9th

Cir.1992) (internal citations omitted).

In the instant Motion, WBEI argues that Starline’s
counterclaim fails because the Agreement states
that all rights to the TMZ Marks 4 would remain
with TMZ both during and after the Agreement
ended. (Mot.12; Agreement at § 6; Id. at § 9.4.)
Moreover, WBEI contends that the law is not on
Starline’s side. For example, in Wetzel’s Pretzels,
LLC v. Johnson, the Central District held that a
terminated licensee could not continue to use a
trademark that Wetzel’s Pretzels initially owned.
797 F.Supp.2d 1020, 1025-28 (C.D. Cal. 2011.)
Similarly here, Here, Starline was a licensee who
was permitted to use the Trademark for the
duration of the Agreement. Looking to the FACC,
Starline argues that by using “TMZ Hollywood
Tour Secrets and Celebrity Hotspots” or something
substantially similar to it in subsequent TMZ
Marks, WBEI is likely to cause customer confusion.
(FACC ¶ 67.) Starline emphasizes that because
TMZ’s past and present Marks are similar,
consumers would not likely detect that the tour is
now operated by TMZ alone. (Opp’n. 12.)
The Court finds that Starline’s assertion that
consumers would be confused is a “conclusory
statement without reference to its factual context.”
Ashcroft, 129 S. Ct. at 1941. TMZ’s current Marks
4 The TMZ Marks include the presently disputed
Trademark. (See FACC Ex. A.)

App-29
read “TMZ Celebrity Tour,” and no longer include
the phrase “Partnered with Starline Bus Tours.”
(See ECF No. 91-1 at 73-74.) Moreover, using
common sense, most individuals taking celebrity
bus tours are tourists, not repeat customers. It is
unlikely that someone would search for Starline for
a second experience and mistakenly choose TMZ
since the two names are no longer together on the
logo. (See ECF No. 91-1 at 73-74.) Thus, risk of
confusion, if any, is minimal.
A full balancing analysis as to consumer confusion
is not necessary here because Starline agreed, in
contract, that TMZ’s Marks were to remain in
TMZ’s ownership after the Agreement came to an
end. (Mot.12; Agreement at § 6; Id. at § 9.4.)
Starline has no ownership rights over the
Trademark, which is a requirement to an unfair
competition claim. Kythera, 998 F. Supp. 2d at 898.
The Trademark is registered to WBEI, not Starline.
Starline only had permission to use the marks for
the duration of the Agreement, which is now
terminated. (Compl. ¶ 25; see also Compl., Ex. B
Termination Letter, ECF No. 1-2.) Without
ownership rights over the Trademark, Starline fails
to state an unfair competition claim that is
“plausible on its face.” Ashcroft, 129 S. Ct. at 1960
(2009)(internal citation omitted).
In sum, Starline’s counterclaim against WBEI for
unfair competition is dismissed.

App-30
3.

Starline’s Remaining
Counterclaims Fail on the Merits

Starline’s only remaining counterclaims are
grounded in state law. (FACC 14-19.) The Court
addresses each the sufficiency of each counterclaim
in turn.
a.

Breach of Fiduciary Duty

“The elements of a cause of action for breach of
fiduciary duty are: (1) existence of a fiduciary duty;
(2) breach of the fiduciary duty; and (3) damage
proximately caused by the breach.” Ash v. N. Am.
Title Co., 223 Cal. App. 4th 1258, 1276 (2014).
Starline alleges that because of the admitted
relationship between WBEI and [TMZ], “it may be
inferred” that WBEI was aware of the Agreement
and [TMZ’s] fiduciary duties arising from it, and
that “by holding exclusive control over the
Trademark, WBEI assisted and encouraged [TMZ]
to engage in the [breach].” (Opp’n. 13.) Starline
further argues that because (1) WBEI knew that
[TMZ] was breaching fiduciary duties owed to
Starline and (2) WBEI gave [TMZ] “substantial
assistance and encouragement” despite this
knowledge, WBEI is also liable for the breach.
(FACC ¶ 51; Opp’n. 13, ECF No. 48.) WBEI
contends that Starline fails to establish that WBEI
owed any fiduciary duties to Starline and as such, a
claim for breach of fiduciary duty is unestablished.
(Mot. 16.)

App-31
The Court finds that Starline fails to state a
plausible claim for relief. Starline references [TMZ]
as a “fiduciary,” but provides no factual allegations
to support a fiduciary relationship. (FACC ¶ 48.)
Moreover, even if [TMZ] and Starline were
“fiduciaries,” Starline asserts this counterclaim
against WBEI and needs to show the Court why its
claim is plausible against WBEI specifically. A
blanket assertion of aiding and abetting, or asking
the Court to infer that [TMZ] consulted with WBEI
concerning a breach is not enough. Starline fails to
provide concrete factual allegations to support its
allegations that WBEI “assisted, encouraged, and
gave substantial assistance” to [TMZ]. (Opp’n. 13;
FACC § 51.) Starline’s counterclaims are
“threadbare recitals of the elements of a cause of
action, supported by mere conclusory statements.”
Ashcroft, 556 U.S. at 678-679.
Starline’s counterclaim against WBEI for breach of
fiduciary duty is dismissed.
b.

Trade Libel

“A cause of action for trade libel requires, at
minimum, a publication which induces others not
to deal with plaintiff, and special damages.”
Nichols v. Great Am. Ins. Companies, 169 Cal. App.
3d 766, 215 Cal. Rptr. 416 (Ct. App. 1985.) “Under
California law, trade libel involves publication of a
false and unprivileged statement of fact regarding
the quality of property, goods or services.” U.S.
Faucets, Inc. v. Home Depot U.S.A. Inc., No. 1:03-

App-32
CV-1572WSD, 2006 WL 1518887, at *6 (N.D. Ga.
May 31, 2006) (citing Nichols, 169 Cal. App.3d at
773.) “California defamation law requires that the
offending statement ‘expressly or impliedly assert a
fact that is susceptible to being proved false,’ and
must be able reasonable to be ‘interpreted as
stating actual facts.’” Id. (quoting Coastal Abstract
Service, Inc. v. First American Title Ins. Co., 173
F.3d 725, 730 (9th Cir.1999)).
Starline alleges that by displaying a banner on its
website that said “WARNING! STARLINE
SELLING
BOGUS
TICKETS
FOR
TMZ
CELEBRITY TOUR,” [TMZ] engaged in trade libel
because [TMZ] did not have the authority to
terminate the Agreement. (FACC ¶ 56-58.) Starline
further argues that WBEI knowingly and willfully
conspired to damage Starline by providing
substantial assistance or encouragement to TMZ’s
posting and thus, WBEI is also liable for trade
libel. (Id.) WBEI argues that Starline fails to allege
facts in support of these conclusory allegations.
(Mot. 18.)
The Court agrees. Even if any of Starline’s claims
against TMZ were viable, Starline fails to show
how that also makes WBEI liable for the same
cause of action. Starline again argues that because
of the admitted relationship between TMZ and
WBEI, “it can be inferred” that WBEI and TMZ
agreed to engage in the libelous conduct. (Opp’n.
14.) Without any facts to support a cause of action

App-33
for conspiracy, the Court cannot infer anything
from a business relationship. See United States v.
Bestfoods, 524 U.S. 51, 61 (1998) (“It is a general
principle of corporate law deeply ‘ingrained in our
economic and legal systems’ that a parent
corporation ... is not liable for the acts of its
subsidiaries”). Starline fails to show any that WBEI
had any independent intent to conspire or harm
Starline, and fails to plead a plausible claim for
relief against WBEI.
Starline’s counterclaim for trade libel against
WBEI is dismissed.
c.

Intentional Interference
With Contractual Relations

“Under California law, a claim for intentional
interference with contract requires: (1) a valid
contract between plaintiff and a third party; (2)
defendant’s knowledge of the contract; (3)
defendant’s intentional acts designed to induce
breach or disruption of the contract; (4) actual
breach or disruption; and (5) resulting damage.”

Family Home & Fin. Ctr., Inc. v. Fed. Home Loan
Mortg. Corp., 525 F.3d 822, 825 (9th Cir. 2008)
(internal citation omitted).

WBEI argues that Starline once again fails to
allege sufficient facts to state a plausible claim for
relief. (Mot. 18-19.) Starline contends that because
WBEI knew about the Agreement it can be inferred
that WBEI induced [TMZ] to breach, and WBEI is

App-34
liable for intentional interference with contractual
relations. (FACC ¶ 62.)
The Court finds that Starline fails to plead a
plausible claim for relief. Starline again asks the
Court to infer a cause of action solely based on the
relationship between [TMZ] and WBEI. (Reply 14.)
A relationship between WBEI and [TMZ] without
more, does not show the Court that WBEI’s actions
were intentionally “designed to induce breach or
disruption of the contract.” Family Home, 525 F.3d
at 825. As such, Starline’s claim is a “mere
conclusion” which is “not entitled to the assumption
of truth.” Ashcroft, 556 U.S. at 694.
Starline’s counterclaim
against
WBEI
for
intentional interference with contractual relations
is dismissed.
d. Declaratory Relief
Starline argues that the Court should provide
declaratory
relief
that
preliminarily
or
permanently enjoins WBEI from using the
Trademark or any mark that imitates or is
confusingly similar to the Trademark, or that is
likely to cause confusion as to WBEI’s
connectedness to Starline or the Starline/TMZ
partnership. (FACC 22.) WBEI contends that the
only declaratory relief that Starline seeks related to
the underlying trademark cancellation and unfair
competition claims and thus, Starline is not
entitled to relief because both of those claims fail.
(Mot. 19-20.)

App-35
The Court agrees. Starline’s request for declaratory
relief only involves WBEI in relation to the
Trademark usage. (FACC 22.) The Court
determined that WBEI had a valid ownership right
over the Trademark and is not liable to Starline for
trademark cancellation or unfair competition.
Accordingly, declaratory relief based on these
claims is unawarranted.
Starline’s claim for declaratory relief against WBEI
is dismissed.
III. RULING
For the foregoing reasons, the Court GRANTS
Plaintiff and Counterdefendant’s Motion to Dismiss
All Counterclaims WITHOUT LEAVE TO AMEND
and GRANTS Plaintiff and Defendant’s Motion to
Strike
Defendant
and
Counterclaimant’s
Affirmative Defense for Trademark Registration
Procured by Fraud.
IT IS SO ORDERED.

App-36
Appendix F
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________
No. CV 16-02001 SJO (GJSx)
________________
WARNER BROS. ENTERTAINMENT INC., et al. v.
STARLINE TOURS OF HOLLYWOOD, INC.
_________________
Filed: October 19, 2018
________________
CIVIL MINUTES – GENERAL
________________
PRESENT: THE HONORABLE S. JAMES
OTERO, UNITED STATES DISTRICT JUDGE
________________
PROCEEDINGS (in chambers): ORDER DENYING
DEFENDANT’S MOTION FOR LEAVE TO
FILE SECOND AMENDED COUNTERCLAIM
[Docket No. 91]
This Motion comes before the Court on Defendant
Starline Tours of Hollywood, Inc.’s (“Starline”)
Motion For Leave To File Second Amended

App-37
Counterclaim (“Motion”) filed August 29, 2018.
Plaintiffs /Counter Defendants EHM Productions
Inc., dba TMZ (“TMZ”) and Warner Bros.
Entertainment Inc. (“WBEI”) filed an Opposition to
the Motion (“Opposition”) on September 10, 2018.
Starline filed a Reply (“Reply”) on September 17,
2018. For the following reasons, the Court DENIES
the motion.
I. FACTUAL AND PROCEDURAL BACKGROUND
A.

Factual Background

Plaintiffs allege the following. In 2010, TMZ
partnered with Starline to create a custom, licensed
TMZ-branded bus tour to be operated by Starline.
(Complaint ¶ 11, ECF No. 1.) In 2011, the TMZ Bus
Tour (“Bus Tour”) was launched with customized
busses featuring the TMZ logo. (Compl. ¶ 11.)
Starline licensed from TMZ a series of trademarks
and service marks incorporating the TMZ name
and logo (the “TMZ Marks”) because of the fame of
such marks and the goodwill associated with the
TMZ Marks. (Compl. ¶ 11.)
1.

The 2012 TMZ-Starline Agreement

In August 2012, TMZ and Starline memorialized
the terms of their arrangement in the 2012 TMZStarline Agreement (“Agreement”). (Compl. ¶ 12;
see also Compl., Ex. A Agreement, ECF 1-1.)

App-38
Pursuant to the Agreement, net revenue is defined
as the aggregate earned gross revenue without
deduction for reserves or collection issues from the
sale of the Bus Tour tickets less operation costs,
shared costs, credit card company charges,
commissions, and other pre-approved costs.
(Agreement 4. 1) Net revenue was to be shared
equally between TMZ and Starline, i.e., fifty
percent to TMZ and fifty percent to Starline.
(Agreement 4.)
The
Agreement
provides
for
a
monthly
reconciliation process from the parties to determine
net revenues each month. (Compl. ¶ 15.) On or
before the twenty-fifth day following the month in
which the revenues are earned and costs incurred,
Starline was to provide TMZ all backup
documentation to support its revenue calculations,
and Starline and TMZ were to provide each other
with expense calculations with supporting
documentation. (Agreement 6.) TMZ would then
prepare and provide a monthly reconciliation
statement, after which Starline had five days to
distribute to TMZ any unreimbursed portion of
shared costs incurred by TMZ and TMZ’s share of
net revenue for the reported month. (Agreement 6.)

1

For purposes of this Order, pagination for the
Agreement follows the pagination indicated on the ECF
stamp. For example, “Agreement 2” refers to page 2 of 31
of Exhibit A, which is the first page of the Agreement.

App-39
The Agreement further requires Starline to deposit
all revenues derived from the Bus Tour
immediately upon collection into a business
checking account solely dedicated to the Bus Tour
(“Dedicated Account”), and to maintain a minimum
account balance of $15,000.00 to minimize bank
fees and expenses. (Agreement 5.)
“[I]n the event of a termination due to material
breach by one party, the non-breaching party shall
not be subject to this Non-Compete, however, no
party is relieved of the obligation to keep
confidential all confidential information obtained
during the course of the parties relationship and no
party shall have the right to use the intellectual
property that is jointly owned by both parties.”
(Agreement 17.)
2.

Dispute Resolution Provisions

Pursuant to the Agreement, “[a]ny and all
controversies, claims or disputes arising out of or
related to this Agreement or the interpretation,
performance or breach thereof, including, but not
limited to, alleged violations of state or federal
statutory or common law rights or duties, and the
determination of the scope or applicability of this
agreement to arbitrate (“Dispute”) . . . shall be
resolved according to the procedures set forth in
subparagraph (a), below, which shall constitute the
sole dispute resolution mechanism hereunder[.]”
(Agreement 20.) Subparagraph (a) (the “Arbitration
Provision”) states, in part: “In the event that the

App-40
parties are unable to resolve any Dispute
informally, then such Dispute shall be submitted to
final and binding arbitration.” (Agreement 21.)
“The arbitration shall be conducted in Los Angeles
County before a single neutral arbitrator appointed
in accordance with the [JAMS] Arbitration Rules.
The arbitrator shall follow California law and the
Federal Rules of Evidence in adjudicating the
Dispute.” (Agreement 21.) Furthermore, the
Agreement provides that “[n]otwithstanding the
foregoing, either party shall be entitled to seek
injunctive relief in the state and federal courts of
Los Angeles County to prevent or to compel conduct
as it relates to operation of the Bus Tour only.
Starline may not seek to enjoin any conduct of
EHM’s other business units, including any EHM
website or television program.” (Agreement 21.)
3.

Starline’s Breaches

Starline was required to make payments to TMZ
within five days after receiving a monthly
reconciliation statement from TMZ. (Compl. ¶ 23.)
Starline breached the Agreement by missing every
payment deadline for the past two years,
sometimes by more than four months. (Compl. ¶
23.) Although the Agreement grants TMZ the right
to terminate the Agreement immediately in the
event of late payment, without providing Starline
any opportunity to cure, TMZ sent multiple
communications to Starline demanding payment.
(Compl. ¶ 23.) Starline did not cure its payment

App-41
breach for November or December 2015 until
February 2016, after TMZ had already terminated
the Agreement. (Compl. ¶ 23.)
Starline also breached the Agreement by failing to
deposit ninety or more percent of revenues into the
Dedicated Account within one month immediately
upon collection thereof. (Compl. ¶ 24.) Starline
informed TMZ that it lacked the “capacity” to
segregate the Bus Tour revenues into the Dedicated
Account, and that it was therefore “impossible” for
Starline to timely make payments to TMZ. (Compl.
¶ 24.)
4.

TMZ’s Termination of the
Agreement

TMZ terminated the Agreement on February 11,
2016 in response to Starline’s repeated material
breaches of the Agreement. (Compl. ¶ 25; see also
Compl., Ex. B Termination Letter, ECF No. 1-2.) In
the Termination Letter, TMZ provided Starline
with written notice of termination for cause.
(Compl. ¶ 25.) Although the Agreement provides for
a sixty-day wind-down period in the event of
termination for cause, in response to Starline’s
request, TMZ agreed to extend the wind-down
period for an extra thirty days, so that termination
will be complete on May 11, 2016 (“Termination
Date”). (Compl. ¶ 25.)

App-42
B.

Procedural Background

Plaintiffs filed a Complaint against Starline on
March 23, 2016. In the Complaint, Plaintiffs allege
the following causes of action: (1) trademark
infringement under the Lanham Act, 15 U.S.C. §
1114; (2) unfair competition under the Lanham Act,
15 U.S.C. § 1125(a); (3) false designation of origin,
false or misleading description of fact, false or
misleading representation of fact, false advertising
and unfair competition under the Lanham Act; (4)
trademark dilution under the Lanham Act, 15
U.S.C. § 1125(c); (5) trademark infringement under
common law; (6) false advertising under California
Business and Professions Code § 17200; (7)
violation of California Business and Professions
Code § 17200; and (8) declaratory relief. 2 (See
generally Compl.)
On March 24, 2016, Plaintiffs filed a motion for
preliminary injunction, seeking to enjoin Starline
from: (1) using the TMZ marks to advertise,
market, or operate any bus tours taking place after
the Termination Date of May 11, 2016; and (2)
operating or representing in any manner that they
2 Plaintiffs did not seek damages from Starline in the
Complaint. Plaintiffs requested that the Court enter a
temporary and permanent injunction enjoining Starline from
using the TMZ Marks to advertise the TMZ Bus Tour after
the Termination Date and to declare that TMZ's termination
of the Agreement was proper, that the termination date is
May 11, 2016, and that Starline has no right to operate the
TMZ bus tour or use any TMZ Marks after that date. (See
Compl., Prayer for Relief.)

App-43
may operate the Bus Tour after the Termination
Date of May 11, 2016. On April 26, 2016, Plaintiffs
withdrew without prejudice the motion for
preliminary injunction because Starline ceased the
infringing conduct. (Notice of Withdrawal, ECF No.
35.)
Starline answered the Complaint (“Answer”) and
filed a counterclaim against WBEI and TMZ
(“Counterclaim”) on April 18, 2016. (See Answer
and Counterclaim, ECF Nos. 29, 30.) On May 8,
2016, Starline filed a First Amended Counterclaim
(“FACC”) alleging: (1) breach of contract against
TMZ; (2) breach of implied covenant of good faith
and fair dealing against TMZ; (3) declaratory relief
against TMZ and WBEI; (4) breach of fiduciary
duty against TMZ and WBEI; (5) trade libel against
TMZ and WBEI; (6) intentional interference with
contractual relations against WBEI; (7) unfair
competition against TMZ and WBEI; and (8)
cancellation of registered trademark against WBEI.
(See First Am. Countercl., ECF No. 37.)
Specifically, Starline seeks damages from both
TMZ and WBEI, a judicial declaration that Starline
has not breached the Agreement, a judicial
determination that TMZ cannot operate a bus tour
that competes with Starline, and that TMZ and
WBEI be preliminarily and/or permanently
enjoined from operating a bus tour that competes
with Starline. (See First Am. Countercl., Prayer for
Relief.)

App-44
On May 9, 2016, WBEI filed a Motion to Strike
Starline’s Fifth Affirmative Defense for Trademark
Registration Procured by Fraud (“Motion to
Strike”). (Mot. to Strike, ECF No. 38.) On May 16,
2016, TMZ filed a Motion to Compel Arbitration,
and WBEI filed a Motion to Dismiss All
Counterclaims Against WBEI (“WBEI Motion to
Dismiss”). (Mot. To Compel, ECF No. 40.); (Mot. to
Dismiss, ECF No. 42.) Starline opposed the Motion
to Strike on May 16, 2016, and opposed the Motion
to Dismiss and instant Motion to Compel
Arbitration on May 23, 2016. (ECF Nos. 44, 48, 49.)
On June 20, 2016, the Court granted Plaintiff
TMZ’s Motion to Compel Arbitration regarding
Starline’s
First
Amended
Counterclaim.
(“Arbitration Order”) (ECF No. 55.) In the same
Arbitration Order, the Court stayed Starline’s
declaratory relief claim against TMZ, Starline’s
claims against WBEI, WBEI’s Motion to Strike,
and WBEI’s Motion to Dismiss pending arbitration.
TMZ and Starline participated in arbitration at
JAMS. (See Ecf No. 83 at 2-3.) The arbitrator
entered her final award (“Final Award”) against
Starline on October 26, 2017. (Id.) TMZ filed a
Petition to Confirm the Final Award in Los Angeles
Superior Court on December 19, 2017. (Id.) Starline
filed a notice of appeal with JAMS on December 20,
2017. (Id.) Starline removed TMZ’s petition to the
United States District Court for the Central
District of California on January 16, 2018, Case No.

App-45
18 CV 369 AB (Jcx), where it was assigned to the
Honorable Andre Birotte, Jr. (The “Confirmation
Action”). (Id.) Starline then filed a Motion to Stay
or in the Alternative, Dismiss EHM’s Motion to
Confirm and a Motion to Vacate Arbitration Award
and Response to Petition to Confirm. (Id.) On
February 28, 2018, Judge Birotte stayed the
petition until fourteen days after the earlier of (a)
an order by the JAMS appellate panel dismissing
the JAMS Appeal or (b) a decision by the JAMS
Appellate Panel on the merits of the JAMS Appeal.
(Id.) JAMS has not yet ruled on Starline’s pending
appeal. (Opp’n. 8, ECF No. 94.)
On February 23, 2018, the Court declined to
transfer the Confirmation Action to its calendar, on
the grounds that the cases concern different parties
and different claims. At a scheduling conference on
May 29, 2018, the Court set trial to resolve the
remaining trademark matters against WBEI for
February 26, 2019. The Court also lifted the stay on
The Motion to Strike and Motion to Dismiss claims.
In the instant Motion, Starline seeks leave to
amend its FACC and do the following: (1) remove
three of the claims in the FACC which were
addressed in arbitration. 3; (2) modify the language
of current counts for declaratory relief, trade libel,
intentional interference with contractual relations,
3

The claims addressed in arbitration include breach
of contract, breach of the implied covenant of good faith
and fair dealing, and breach of fiduciary duty. (Mot. 2.)

App-46
unfair competition, and trademark fraud (which
includes a request for cancellation of trademark);
(3) add a related claim for unfair business practices
pursuant to section 17200 of the California
Business and Professions Code; and (4) add a
defendant, MBLC, formerly known as TMZ
Productions Inc. (“MBLC”) as a counter-defendant.
(Mot. 2.)
For the following reasons, the Court DENIES
Defendant’s Motion.
II. DISCUSSION
A.

Legal Standard

A party may amend its pleading once as a matter of
course within 21 days after service of a responsive
pleading or motion under Rule 12(b), (e), or (f),
whichever is earlier. See Fed. R. Civ. P. 15(a)(1)(B).
“In all other cases, a party may amend its pleading
only with the opposing party’s written consent or
the court’s leave. The court should freely give leave
when justice so requires.” Fed. R. Civ. P. 15(a)(2).
“Although [Rule 15] should be interpreted with
‘extreme liberality’ . . . leave to amend is not to be
granted automatically.” Jackson v. Bank of Hawaii,
902 F.2d 1385, 1387 (9th Cir. 1990) (quoting United
States v. Webb, 655 F.2d 977, 979 (9th Cir.1981)).
In assessing the propriety of amendment, district
courts consider five factors: (1) undue delay, (2) bad
faith or dilatory motive; (3) repeated failure to cure

App-47
deficiencies by amendments previously permitted;
(4) prejudice to the opposing party; and (5) futility
of amendment. United States v. Corinthian
Colleges, 655 F.3d 984, 995 (9th Cir. 2011).
However, the “crucial factor” in determining
whether to grant leave to amend under Rule 15 “is
the resulting prejudice to the opposing party.”
Howey v. United States, 481 F.2d 1187, 1190 (9th
Cir. 1973); see also Eminence Capital, LLC v.
Aspeon, Inc., 316 F.3d 1048, 1052 (9th Cir. 2003)
(“[T]he consideration of prejudice to the opposing
party. . . carries the greatest weight”).
B.

Analysis

The Court addresses each of the five factors in turn.
Ultimately, the Court concludes that Plaintiff
should not be provided leave to file a second
amended counterclaim.
1.

Undue Delay

Starline unduly delayed bringing the instant
Motion. WBEI and TMZ argue that if Starline’s
Second Amended Counterclaim (“SACC”) is
permitted, WBEI’s renewed Motion to Dismiss will
be heard around the close of discovery and just
before parties move for summary judgment,
causing undue delay. (Opp’n. 18.) Starline argues
that there is no undue delay because WBEI and
TMZ did not inform Starline that they would not
stipulate to filing the SACC until August 21, 2018,
and Starline promptly filed the instant motion
eight days later. (Mot. 2-3.) Starline emphasizes

App-48
that there is no undue delay because new claims
were undiscovered until JAMS arbitration
proceedings. (Reply 1, ECF No. 96.) Even if this
were true, JAMS arbitration concluded in February
2017. (See Final Award, ECF No. 95-1.) Starline
did not attempt to stipulate to amendments with
WBEI and TMZ until June 2018. (See Ghods Decl.
Ex. C, ECF No. 92.) Even if WBEI did not refuse to
stipulate until August 21, 2018, Starline knew
about potential claims to bring since, at the very
latest, arbitration ended in October 2017. (Reply 3.)
The Court recognizes that the FACC was already
filed by this time. (ECF No. 36.) However, the
Court lifted the stay on WBEI’s pending Motions on
May 29, 2018. Starline did not initiate
conversations with WBEI about stipulation at this
time. Rather, WBEI and TMZ initiated the request
to stipulate themselves. (See Ghods Decl. Ex. C,
ECF No. 92-3.) Moreover, when WBEI and TMZ
asked Starline about the substance of the SACC,
Starline was evasive about adding counterclaims,
calling the counterclaims “updated” and providing
no further details. (Id.) Finally, although Starline
initially promised WBEI and TMZ the suggested
stipulation by June 15, 2018 and the amended
pleading by June 25, 2018, Starline did not send
the amended pleading until July 10, 2018. (Id.)
Without the amended pleading, WBEI and TMZ
could not stipulate. It is clear to the Court that the
delay here was avoidable.

App-49
The Court notes that Starline’s intentions to amend
could have been discussed at the Status Conference
held May 29, 2018, yet Starline mentioned nothing.
Starline seeks to add additional parties, modify
current counts, and add a related claim for unfair
business practices. Many of these claims, if truly
pressing, could have been initiated much sooner
either immediately after the stay was lifted in this
Court, or in a separately filed lawsuit elsewhere.
As noted above, Starline’s actions fall short of
competent. Starline waited a month after the stay
was lifted before truly attempting to stipulate with
WBEI and TMZ. Further, the parties have already
started discovery and are not at an early stage of
litigation. Allowing the proposed amendments to
proceed at this stage would unduly delay litigation.
Thus, Starline’s undue delay weighs against
granting leave to amend the FACC. See Chodos v.
W. Publ’g Co., 292 F.3d 992, 1003 (9th Cir. 2002)
(finding undue delay when a plaintiff waited until
the close of discovery to seek to amend a
complaint).
2.

Bad Faith

The Court does not find overt bad faith here.
On one hand, WBEI and TMZ argue that the
proposed amendments are a “blatant attempt” to
relitigate claims already decided in JAMS
arbitration and avoid the Court’s currently pending
decisions. (Def. WBEI’s Opp’n. 17-19.) On the other

App-50
hand, Starline contends that the instant Motion is
not sought in bad faith, and is purely motivated by
a “good faith effort to streamline [the] FACC.” (Mot.
9.) Moreover, Starline states that neither WBEI nor
MBLC was a party to arbitration or the jointventure agreement and as such, Starline would not
be re-litigating any claims against them
specifically. (Id.)
The lack of bad faith here hinges on two things–
Starline’s removal of the formerly litigated
arbitration claims and the addition of new parties.
Had Starline exclusively sought to modify claims
that were litigated in arbitration, the analysis here
might be different. It is not clear from Starline’s
proposed amendments that he is exclusively
motivated to re-litigate or delay the Courts
dismissal decisions.
Thus, the Court does not unequivocally find that
Starline acts in bad faith. This factor is neutral.
3.

Previous Deficient Amendments to
the Complaint

In examining the third factor, the Ninth Circuit’s
decision in Royal Ins. Co. of Am. v. Sw. Marine, 194
F.3d 1009 (9th Cir. 1999) is instructive. Royal
Insurance Company (“Royal”) sued Southwest
Marine (“Southwest”) for negligence, breach of
contract, and breach of warranty when Southwest
allegedly caused $900,000 of damage to a boat
insured by Royal. Id. at 1013. Royal amended the
original complaint to correct minor deficiencies and,

App-51
later, amended the complaint again to assert
additional claims against Southwest. Id. However,
the district court denied Royal’s motion for leave to
file a third amended complaint because the facts
involved were known to Royal at the time of filing.
Id. On appeal, the Ninth Circuit stated, “[L]ate
amendments to assert new theories are not
reviewed favorably when the facts and the theory
have been known to the party seeking amendment
since the inception of the cause of action.” Id. at
1016-17 (quoting Acri v. International Assoc. of
Machinists & Aerospace Workers, 781 F.2d 1393,
1398 (9th Cir.1986)).
Similarly here, the Court holds that Starline “knew
or should have known the facts and theories raised
by the amendment” by at the very latest, February
24, 2017, when arbitration concluded. See Jackson,
902 F.2d at 1388. Although the FACC was already
filed at this time, Starline waited far too long to
seek any cause of action for the claims he wants to
bring now.
In sum, Starline’s prior amendments and the
suspect timing of the currently sought amendments
weigh against granting leave to amend.
4.

Prejudice to the Opposing Party

“[T]he consideration of prejudice to the opposing
party carries the greatest weight.” Eminence
Capital, 316 F.3d at 1052.

App-52
WBEI, TMZ, and proposed party MBLC will suffer
great prejudice if the Court grants Starline leave to
amend. Plaintiff’s proposed amendment advances
new legal theories, new allegations, and new
parties. (Mot. Ex. B, ECF No. 91-2.) See Jackson v.
Bank of Hawaii, 902 F.2d 1385, 1388 (9th Cir.
1990) (finding prejudice where allowing an
amendment would have forced a defendant to
litigate an entirely different legal claim and
theory). Moreover, as established, allowing any
amendments at this time would cause the Court’s
ruling on WBEI’s Motion to Dismiss to come out
“right at the close of discovery and just before the
time of filing of any motions for summary
judgment. (Opp’n. 18.) Plaintiff argues that it
would not oppose extension of discovery deadlines
which would remedy any prejudice against
Counter-defendant WBEI. (Reply 1.) This is simply
not enough. The Court has no way of confirming at
this time that any joint stipulation would be
proposed by Starline in the future. Moreover, since
the delay here was avoidable by Starline, prejudice
to the opposing party was avoidable as well.
Prejudice to the opposing party is evident here and
given great weight.
5.

Futility of the Amendment

A proposed amendment is futile only if “it appears
beyond doubt that [the amended complaint] would
also be dismissed for failure to state a claim.”

App-53

Sweaney v. Ada County, Idaho, 119 F.3d 1385,
1393 (9th Cir. 1997.)

WBEI argues that any amendment to the FACC
would be futile, that this court would dismiss the
SACC pursuant to Federal Rule of Civil Procedure
12(b)(6), and that Starline’s claims are barred by
res judicata and the statute of limitations. (Opp’n.
11-17.) Plaintiff contends that he seeks to add new
facts, new parties, and new causes of action, his
claims are not barred by res judicata, nor the
statute of limitations. (See Reply.)
As discussed in the Courts recent Order granting
WBEI’s Motion to Dismiss (ECF No. 42), Starline
fails to state a claim for relief based on fraud or
unfair competition. Although Starline brings in a
new defendant, the key facts that support
Starline’s claims trademark fraud remain the
same, and still are insufficient to survive dismissal.
Plaintiff argues that the amended allegations for
unfair competition are now sufficient because
WBEI and TMZ misrepresented a 2013 Certificate
of Excellence which was awarded to the
TMZ/Starline partnership. (Mot. Ex. B at ¶¶ 35-36.)
Starline argues that the certificate was “unlawfully
taken.” (Id.) However, Starline provides no exhibits
or statements in the SACC that show the
Certificate was awarded to the partnership, nor
that TMZ used the trademark or certificate in a
deceiving way. (Id.) To prove a claim of [unfair, a
plaintiff must show: (1) that it has a valid,

App-54
protectable trademark, and (2) that defendant’s use
of the mark is likely to cause confusion. Kythera
Biopharmaceuticals, Inc. v. Lithera, Inc., 998 F.
Supp. 2d 890, 898 (C.D. Cal. 2014) (citing Applied
Info. Scis. Corp. v. eBay, Inc., 511 F.3d 966, 969
(9th Cir.2007)). Starline never owned a valid
tradmark. WBEI owned it. (Mot. Ex. 5.) Thus,
Starline’s claim for unfair competition is futile.
Starline also seeks declaratory judgment against
MBLC, alleging that MBLC is using confidential
information and enjoying benefits of the bus tour to
the exclusion of Starline. (See Mot. Ex. B.) All of
Starline’s claims against MBLC are connected to
Starline’s purported ownership of the TMZ
trademark. As established, WBEI owns the
trademark. Thus, because Starline does not have a
claim in trademark infringement, it is futile to add
MBLC to the lawsuit.
Because Starline’s unfair competition and
cancellation
of
trademark
claims
remain
insufficient under Rule 12(b)(6) as to WBEI, TMZ,
and MBLC, the Court finds that the futility factor
weighs against granting leave to amend.
In sum, while (1) bad faith is not clear in this case,
the court finds (2) undue delay, (3) prior
unsuccessful amendments, (4) prejudice to the
opposing parties and (5) amendment futility. As
such, the factors weigh against granting leave to
amend.

App-55
III. RULING
For the foregoing reasons, the Court DENIES
Plaintiff’s Motion for Leave to File a Second
Amended Counterclaim.
IT IS SO ORDERED.

App-56
Appendix G
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA,
WESTERN DIVISION
________________
No. CV 16-02001 SJO (GJSx)
________________
WARNER BROS. ENTERTAINMENT INC., A Delaware
corporation, and EHM PRODUCTIONS INC., a
California corporation.
Plaintiffs and Counterdefendants,
v.
STARLINE TOURS OF HOLLYWOOD, INC., a California
corporation,
Defendant and Counterclaimant
_________________
Filed: February 14, 2019
________________
REPORT ON THE FILING OR DETERMINATION
OF AN ACTION REGARDING A PATENT OR
TRADEMARK (WITH JOINT STIPULATION RE
DISMISSAL OF ACTION WITHOUT
PREJUDICE)
________________
The Honorable S. James Otero
Trial Date: February 26, 2019

Case 2:16-cv-02001-SJO-GJS Document 111 Filed 02/14/19 Page 1 of 3 Page ID #:1380
App-57
AO 120 (Rev. 08/10)
REPORT ON THE
FILING OR DETERMINATION OF AN
ACTION REGARDING A PATENT OR
TRADEMARK

Mail Stop 8
Director of the U.S. Patent and Trademark Office
P.O. Box 1450
Alexandria, VA 22313-1450

TO:

In Compliance with 35 U.S.C. § 290 and/or 15 U.S.C. § 1116 you are hereby advised that a court action has been
Central District of California
filed in the U.S. District Court
on the following

 Trademarks or


 Patents.

DOCKET NO.

2:16-CV-02001

PLAINTIFF

(



the patent action involves 35 U.S.C. § 292.):

DATE FILED

U.S. DISTRICT COURT

3/23/2016

EHM PRODUCTIONS INC., dba TMZ, a California
corporation; and WARNER BROS. ENTERTAINMENT
INC., a Delaware corporation
PATENT OR
TRADEMARK NO.

DEFENDANT

Central District of California

STARLINE TOURS OF HOLLYWOOD, INC., a California
corporation

DATE OF PATENT
OR TRADEMARK

HOLDER OF PATENT OR TRADEMARK

1 85,295,729

11/22/2011

Warner Bros. Entertainment Inc.

2 78,714,219

5/8/2007

Warner Bros. Entertainment Inc.

3 78,714,214

3/18/2008

Warner Bros. Entertainment Inc.

4
5
In the above—entitled case, the following patent(s)/ trademark(s) have been included:
DATE INCLUDED

INCLUDED BY

PATENT OR
TRADEMARK NO.

Amendment
DATE OF PATENT
OR TRADEMARK



 Answer



Cross Bill



Other Pleading

HOLDER OF PATENT OR TRADEMARK

1
2
3
4
5
In the above—entitled case, the following decision has been rendered or judgement issued:
DECISION/JUDGEMENT

2./13/19

Joint STIPULATION to Dismiss Case pursuant to F.R.Civ.P. 41(a)(1)(A)(ii)

CLERK

(BY) DEPUTY CLERK

Kiry Gray

L Chai
X

DATE

2/14/ 2019

Copy 1—Upon initiation of action, mail this copy to Director Copy 3—Upon termination of action, mail this copy to Director
Copy 2—Upon filing document adding patent(s), mail this copy to Director Copy 4—Case file copy

App-58
TO THE COURT, ALL PARTIES, AND THEIR
COUNSEL OF RECORD:
Please take notice that, under Federal Rule of Civil
Procedure 41(a)(1)(A)(ii), and at the suggestion of
the Court to avoid an unnecessary appearance at
the pretrial conference scheduled for Tuesday,
February
19,
2019,
Plaintiffs
and
Counterdefendants Warner Bros. Entertainment
Inc. and EHM Productions Inc., dba TMZ (“Warner
Bros.”) and Defendant and Counterclaimant
Starline Tours of Hollywood, Inc. (“Starline”)
(collectively “the Parties”), by and through their
attorneys of record, voluntarily dismiss the
remaining portions of this action without prejudice.
More specifically, the Warner Bros. Plaintiffs are
dismissing all of their claims in their Complaint
and Defendant Starline is dismissing the one
remaining claim for declaratory relief in its First
Amended Counterclaim.
DATED: February 13, 2019
Respectfully submitted,
BOIES SCHILLER FLEXNER LLP
ANDREW ESBENSHADE
KIMBERLY M. SINGER
By /s/ Andrew Esbenshade
ANDREW ESBENSHADE
Attorneys for Plaintiffs and
Counterdefendants

App-59
WARNER BROS. ENTERTAINMENT INC.
and EHM PRODUCTIONS INC., dba TMZ
DATED: February 13, 2019
LEX OPUS
MOHAMMED K. GHODS
JEREMY A. RHYNE
LORI SPEAK
By

/s/ Mohammed K. Ghods (with
authorization)

MOHAMMED K. GHODS
Attorneys for Defendant and Counterclaimant
STARLINE TOURS OF HOLLYWOOD, INC.

App-60
Appendix H
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________
No. CV 16-02001 SJO (GJSx)
________________
WARNER BROS. ENTERTAINMENT INC., A Delaware
corporation, and EHM PRODUCTIONS INC., a
California corporation.
Plaintiffs and Counterdefendants,
v.
STARLINE TOURS OF HOLLYWOOD, INC., a California
corporation,
Defendant and Counterclaimant
_________________
Filed: January 29, 2019
________________
DEFENDANT AND COUNTERCLAIMANT
STARLINE TOURS OF HOLLYWOOD, INC.’S
MEMORANDUM OF CONTENTIONS OF FACT
AND LAW
________________
Judge: Hon. S. James Otero
Place: Courtroom 10C
Pretrial Conf: February 19, 2019
Trial Date: February 26, 2019

App-61
Defendant and Counterclaimant STARLINE
TOURS OF HOLLYWOOD, INC. (“Starline”)
hereby submits its Memorandum of Contentions of
Fact and Law:
I. INTRODUCTION
As explained
dismissed.

below,

this

matter

should

be

Warner Bros. Entertainment Inc. and EHM
Productions, Inc., dba TMZ (“WBEI” and “TMZ,”
respectively) filed this action for trademark
infringement and unfair competition seeking
injunctive and declaratory relief. In brief, their
Complaint alleges that TMZ and Starline entered
into a joint venture agreement to operate a TMZbranded bus tour in which, generally speaking,
Starline was to provide buses and bus drivers and
TMZ was to provide its name, tour content, and
tour guides. That joint venture agreement provided
that Starline and TMZ would equally split profits
generated by the tour. They jointly operated that
tour for several years under a few different names
using the “TMZ” mark. Plaintiffs filed this action
because Starline refused to acknowledge what it
believed was an invalid termination of the
relationship and, therefore, continued marketing
the joint tour. By this action, Plaintiffs wanted to
stop Starline from doing so. However, Starline
voluntarily stopped marketing the tour, and

App-62
therefore, Plaintiffs’ claims for injunctive relief
became moot.
On April 18, 2016, Starline filed its answer to
EHM’s Complaint as well as a Counterclaim. On
May 8, 2016, Starline filed a First Amended
Counterclaim (ECF No. 37). In that Counterclaim,
Starline claimed that TMZ breached its fiduciary
duties and breached the agreement’s noncompetition clause by preparing to operate a
competing bus tour during the term of the
agreement and by operating a competing bus tour
using the same name used for the joint venture’s
bus tour. Also, Starline claimed that WBEI and
TMZ engaged in unfair competition under the
Lanham Act by using a name for TMZ’s bus tour
that properly belongs to the TMZ/Starline
partnership. Finally, Starline sought damages for
trade libel and intentional interference with
contractual relations, and sought a cancellation of
WBEI’s registered mark used in connection with
TMZ’s bus tour.
Upon Plaintiffs’ motion to compel arbitration, the
Court ordered all of Starline’s claims against TMZ
to arbitration except for Starline’s declaratory relief
claim. The Court stayed Starline’s declaratory
relief claim against TMZ and all of Starline’s claims
against WBEI as well as WBEI’s motion to dismiss
pending the arbitration. Upon completion of
arbitration, Starline sought leave to file a second
amended counterclaim. The Court instead granted

App-63
WBEI’s motion to dismiss all of Starline’s
counterclaims and denied Starline’s request for
leave to amend. The Court also struck Starline’s
Fifth Affirmative Defense regarding fraudulent
trademark. Therefore, the remaining claims in this
case are all of Plaintiff’s claims and Starline’s
declaratory relief claim against TMZ.
However, because Plaintiffs have failed entirely to
prosecute their case, judgment should be entered in
favor of Starline. Furthermore, because this Court
dismissed all of Starline’s claims against WBEI and
ordered all Starline’s claims against TMZ to
arbitration, except for its declaratory relief claim,
all that remains of Starline’s counterclaim is a
claim for declaratory relief. But because the issues
raised in that claim have been addressed in
arbitration, which is currently pending in a JAMS
Appeal, Starline requests that the Court dismiss its
sole remaining claim for declaratory relief against
TMZ.
II. Plaintiffs’ Claims
WBEI and EHM filed a Complaint alleging eight
causes of action:
1. Trademark Infringement under the Lanham
Act, 15 U.S.C. § 1114
2. Unfair Competition under the Lanham Act,
15 U.S.C. § 1125(a)

App-64
3. False Designation of Origin, False or
Misleading Description of Fact, False or
Misleading Representation of Fact, False
Advertising and Unfair Competition under
the Lanham Act;
4. Trademark Dilution under the Lanham Act,
15 U.S.C. § 1125(c)
5. Trademark Infringement under Common Law
6. False Advertising under Cal. Bus. & Prof.
Code § 17500
7. Unfair Competition under Cal. Bus. & Prof.
Code § 17200
8. Declaratory Relief
Bottom line, Plaintiff has failed to prosecute any of
these claims. Counsel for Starline asked Plaintiffs’
counsel about the status of the pending claims prior
to the deadline for this memorandum. Plaintiffs’
counsel did not respond. The parties’ stipulated
deadline for initial disclosures was November 14,
2018. Plaintiffs failed to make any disclosures
before that deadline or anytime after the deadline,
up to the filing of this memorandum. Rule
26(a)(3)(B) of the Federal Rules of Civil Procedure
mandates that these disclosures be made at least
30 days before trial. Trial is scheduled for February
26, 2018. The 30-day deadline has passed.
Furthermore, Plaintiffs failed to propound any
discovery, no interrogatories, no requests for
production, no depositions. Nothing. Because

App-65
Plaintiffs failed to prosecute their case and because
they did not disclose any evidence or witnesses,
Plaintiffs cannot rely on any information or
witnesses to support their claims against Starline.
(Fed. R. Civ. Proc. 37(c)(1); Yeti by Molly, Ltd. v.
Deckers Outdoor Corp., 259 F.3d 1101, 1106-1107
(9th Cir. 2001) [exclusion of evidence for failure to
comply with Rule 26 disclosure requirements is an
appropriate remedy].)
Because a defendant has no burden to defend
against claims absent a sufficient presentation of
evidence by a plaintiff, Defendant requests that
judgment be entered in favor of Starline.
III. Starline’s Counterclaim
This Court dismissed all of Starline’s claims
against WBEI and ordered all Starline’s claims
against TMZ to arbitration, except for its
declaratory relief claim. Therefore, all that remains
of Starline’s counterclaim is a claim for declaratory
relief. Because the issues raised in that claim have
been addressed in arbitration, which is currently
pending on JAMS appeal, and because this Court
has stated that those arbitration claims are not
related to this case, Starline requests that the
Court dismiss its sole remaining claim for
declaratory relief against TMZ.
Dated: January 29, 2019

App-66
LEX OPUS
/s/ Jeremy A. Rhyne
By: Jeremy A. Rhyne
Attorneys for
Defendant/Counterclaimant
STARLINE TOURS OF
HOLLYWOOD, INC.

App-67
Appendix I
RELEVANT STATUTORY
AND RULES PROVISIONS
28 U.S.C. § 1291
The courts of appeals (other than the United States
Court of Appeals for the Federal Circuit) shall have
jurisdiction of appeals from all final decisions of the
district courts of the United States, the United
States District Court for the District of the Canal
Zone, the District Court of Guam, and the District
Court of the Virgin Islands, except where a direct
review may be had in the Supreme Court. The
jurisdiction of the United States Court of Appeals
for the Federal Circuit shall be limited to the
jurisdiction described in sections 1292(c) and (d)
and 1295 of this title.
Rule 41 of the Federal Rules of Civil Procedure
for the United States District Courts
(a) Voluntary Dismissal.
(1) By the Plaintiff.
(A) Without a Court Order. Subject to Rules
23(e), 23.1(c), 23.2, and 66 and any
applicable federal statute, the plaintiff may
dismiss an action without a court order by
filing:

App-68
(i) a notice of dismissal before the
opposing party serves either an answer or
a motion for summary judgment; or
(ii) a stipulation of dismissal signed by all
parties who have appeared.
(B) Effect. Unless the notice or stipulation
states otherwise, the dismissal is without
prejudice. But if the plaintiff previously
dismissed any federal- or state-court action
based on or including the same claim, a
notice of dismissal operates as an
adjudication on the merits.
(2) By Court Order; Effect. Except as provided
in Rule 41(a)(1), an action may be dismissed at
the plaintiff's request only by court order, on
terms that the court considers proper. If a
defendant has pleaded a counterclaim before
being served with the plaintiff's motion to
dismiss, the action may be dismissed over the
defendant's objection only if the counterclaim
can
remain
pending
for
independent
adjudication. Unless the order states otherwise,
a dismissal under this paragraph (2) is without
prejudice.
(b) Involuntary Dismissal; Effect. If the plaintiff
fails to prosecute or to comply with these rules or a
court order, a defendant may move to dismiss the
action or any claim against it. Unless the dismissal
order states otherwise, a dismissal under this
subdivision (b) and any dismissal not under this

App-69
rule—except one for lack of jurisdiction, improper
venue, or failure to join a party under Rule 19—
operates as an adjudication on the merits.
(c) Dismissing a Counterclaim, Crossclaim, or
Third-Party Claim. This rule applies to a dismissal
of any counterclaim, crossclaim, or third-party
claim. A claimant’s voluntary dismissal under Rule
41(a)(1)(A)(i) must be made:
(1) before a responsive pleading is served; or
(2) if there is no responsive pleading, before
evidence is introduced at a hearing or trial.
(d) Costs of a Previously Dismissed Action. If a
plaintiff who previously dismissed an action in any
court files an action based on or including the same
claim against the same defendant, the court:
(1) may order the plaintiff to pay all or part of
the costs of that previous action; and
(2) may stay the proceedings until the plaintiff
has complied.

